      Report No. DODIG-2012-099   June 1, 2012




  Adequate Contract Support and Oversight Needed
for the Tactical Wheeled Vehicle Maintenance Mission
                      in Kuwait
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACC-RI                        Army Contracting Command-Rock Island
AFSBn-Kuwait                  Army Field Support Battalion-Kuwait
APS                           Army Prepositioned Stock
ARCENT                        U.S. Army Central
ASC                           U.S. Army Sustainment Command
COR                           Contracting Officer’s Representative
CPFF                          Cost-Plus-Fixed-Fee
DTS                           Direct Theater Support
FFP                           Firm-Fixed Price
FIRST                         Field Installation and Readiness Support Team
ITT                           ITT Corporation
MRAP                          Mine Resistant Ambush Protected
TWV                           Tactical Wheeled Vehicle
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500



                                                                                       June 1, 2012

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Adequate Contract Support and Oversight Needed for the Tactical Wheeled
         Vehicle Maintenance Mission in Kuwait (Report No. DODIG-2012-099)

We are providing this report for review and comment. Army Field Support
Battalion-Kuwait’s contractor, ITT Corporation, did not consistently meet requirements for
contract W911SE-07-D-0006, task order BA-02, currently valued at about $848.91 million.
Not all tactical wheeled vehicles were ready for timely issuance to warfighters in Southwest
Asia, which left contingency operations at risk. In addition, U.S. Army Sustainment
Command personnel did not sufficiently staff Army Field Support Battalion-Kuwait with
experienced personnel to oversee the contract. We considered management comments on a
draft of this report when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Executive Deputy to the Commanding General, U.S. Army Materiel Command
endorsed the comments provided by the U.S. Army Sustainment Command and the Army
Contracting Command-Rock Island. The comments from the U.S. Army Sustainment
Command and the Army Contracting Command-Rock Island on Recommendations A.1,
A.2, B.1.a, B.1.b, and B.3.a were responsive and no further comments are required.
Comments from the Executive Director, Army Contracting Command-Rock Island on
Recommendation B.3.b were not responsive. Therefore, we request that the Executive
Director, Army Contracting Command-Rock Island, provide additional comments on
Recommendation B.3.b by July 2, 2012. We redirected Recommendation B.2 to the
Defense Contract Management Agency because the procuring contracting officer delegated
task order BA-02 contract administration to the Director, Defense Contract Management
Agency-Kuwait. We request that the Director, Defense Contract Management Agency,
comment on Recommendation B.2 by July 2, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audjsao@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol in
place of the actual signature. Comments provided to the final report must be marked and
portion-marked, as appropriate, in accordance with DoD Manual 5200.1. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate
           (b)(6)
                  the courtesies   extended to the staff. Please direct questions to me at
                               (b)(6)
(703) 604-         (DSN 664-




                                                Amy J. Frontz
                                                Principal Assistant Inspector General for
                                                   Auditing
   Report No. DODIG-2012-099 (Project No. D2011-D000JA-0212.000)                                    June 1, 2012

                   Results in Brief: Adequate Contract Support
                   and Oversight Needed for the Tactical
                   Wheeled Vehicle Maintenance Mission in
                   Kuwait
What We Did                                                    AFSBn-Kuwait personnel did not provide appropriate
                                                               contract oversight to validate that repairs were needed
Our objective was to determine whether DoD effectively
                                                               and labor hours billed were accurate. This occurred
executed maintenance for tactical wheeled vehicles
                                                               because U.S. Army Sustainment Command (ASC) did
(TWV) in Kuwait. Specifically, we determined whether
                                                               not sufficiently staff AFSBn-Kuwait with experienced
DoD provided appropriate contract oversight to ensure
                                                               personnel to oversee the contract. Also, the Quality
that TWVs received the necessary repairs and
                                                               Assurance Maintenance Work Plan did not require
maintenance. We reviewed Army Field Support
                                                               AFSBn-Kuwait personnel to approve repairs before the
Battalion-Kuwait’s (AFSBn-Kuwait) oversight of the
                                                               contractor could begin work or review contract labor
$848.91 million contract W911SE-07-D-0006, task
                                                               hours billed. As a result, ITT personnel ordered and
order BA-02 with ITT Corporation (ITT).
                                                               installed almost 4 million repair parts and billed
What We Found                                                  $160.75 million for maintenance labor hours worked and
                                                               the U.S. Army did not have assurance that those costs
AFSBn-Kuwait’s contractor, ITT, did not effectively
                                                               were justified.
execute maintenance for TWVs in Kuwait. In response,
DoD contracting personnel issued 149 corrective action         What We Recommend
and contract discrepancy reports, show cause and cure
                                                               We recommend that the Commander, ASC, in
notices, and a partial termination for default to ITT;
                                                               coordination with the Executive Director, ACC-RI,
however, ITT’s performance still did not meet contract
                                                               amend the current contract to include provisions that
requirements. This occurred because Army Contracting
                                                               incentivize the contractor for efficient and economical
Command-Rock Island (ACC-RI) used a contract type
                                                               performance and award a new contract before option
and method that did not incentivize the contractor to
                                                               year two ends. We also recommend that the
perform quality work. As a result, warfighters in
                                                               Commander, ASC, sufficiently staff AFSBn-Kuwait to
Southwest Asia and their missions were at risk. Further,
                                                               carry out their oversight mission, that the Director,
the Army Prepositioned Stock-5 (APS-5) set may not be
                                                               Defense Contract Management Agency-Kuwait establish
ready for timely issuance to the U.S. and its Allies in
                                                               procedures that require oversight personnel to approve
response to contingency operations. Direct theater
                                                               maintenance before the contractor begins work, and the
support (DTS) equipment was not always ready to meet
                                                               Executive Director, ACC-RI, ensure that contract labor
deadlines in support of contingency operations. In
                                                               hours billed are reviewed.
addition, ITT personnel left APS-5 and DTS equipment
exposed to theft and damage, which jeopardized                 Management Comments and Our
AFSBn-Kuwait personnel’s ability to issue that
equipment as required. We informed ACC-RI of these
                                                               Response
problems on October 18, 2011, and on November 22,              The Commanding General, ASC, and the Executive
2011, the Executive Deputy to the Commanding                   Director, ACC-RI, agreed or partially agreed with the
General, U.S. Army Materiel Command, responded and             report recommendations. In finalizing the report, we
stated that the ACC-RI initiated plans to award a new          redirected one recommendation because the procuring
contract by June 1, 2012. However, on February 29,             contracting officer made the Defense Contract
2012, the procuring contracting officer issued a               Management Agency-Kuwait responsible for managing
modification exercising option year two at $302 million.       task order BA-02’s contract oversight. We request
The period of performance for the option year was from         comments in response to the final report by July 2, 2012,
March 1, 2012, through February 28, 2013.                      as indicated in the recommendations table on page ii.

                                                           i
Report No. DODIG-2012-099 (Project No. D2011-D000JA-0212.000)                     June 1, 2012



      Recommendations Table

              Management                Recommendations             No Additional
                                       Requiring Comment          Comments Required
      Director, Defense Contract     B.2
      Management Agency
      Commander, U.S. Army                                      B.1.a, B.1.b
      Sustainment Command

      Executive Director, Army       B.3.b                      A.1, A.2, B.3.a
      Contracting Command-Rock
      Island


      Please provide comments by July 2, 2012.




                                                 ii
Table of Contents

Introduction                                                              1

      Objectives                                                          1
      Background                                                          1
      Review of Internal Controls                                         4

Finding A. Contractor Did Not Meet Army Field Support Battalion-Kuwait
   Mission                                                                5

      Maintenance Mission Needed Better Contractor Support                 5
      Contract Type and Method Were Not Appropriate                        8
      Warfighter Missions at Risk                                          9
      Plans for a New Contract and Extension to Current Contract          10
      Management Comments on the Finding and Our Response                 10
      Recommendations, Management Comments, and Our Response              11

Finding B. Contractor Needed Better Oversight                             13

      Adequate Oversight Required                                         13
      Contracting Officer’s Representatives Need to Be More Involved in
         Maintenance Oversight                                            13
      Better Oversight Needed Over Labor Hours Billed                     15
      Army Field Support Battalion-Kuwait Not Adequately Staffed          16
      Maintenance Work Plan Should Include Additional Procedures          17
      Risk of Unnecessary Maintenance and Cost Increases                  18
      Recommendations, Management Comments, and Our Response              18

Appendices

      A. Scope and Methodology                                            23
           Reliability of Computer-Processed Data Not Assessed            24
           Prior Coverage                                                 24
      B. Tactical Wheeled Vehicles                                        26
      C. DoD Office of Inspector General Quick Reaction Memorandum
           and U.S. Army Response                                         29

Glossary                                                                  38

Management Comments

      Department of the Army
          U.S. Army Materiel Command                                      41
                                     FOR OFFICIAL USE ONLY


Introduction
Objectives
Our objective was to determine whether DoD effectively executed maintenance for
tactical wheeled vehicles (TWV) in Kuwait. Specifically, we determined whether DoD
provided appropriate contract oversight to ensure that TWVs received the necessary
repairs and maintenance. This report focuses on Army Field Support Battalion-Kuwait’s
(AFSBn-Kuwait) oversight procedures over maintenance conducted by ITT Corporation
(ITT) between May 2010 and November 2011. As of November 2011, ITT billed the
U.S. Army approximately $160.75 million for maintenance conducted in Kuwait under
task order BA-02. The structure of task order BA-02 did not always allow us to
differentiate between maintenance and billings related to TWVs and maintenance and
billings related to other equipment. Therefore, in some cases, we analyzed documentation
that related to more than just TWV maintenance to draw our conclusions. The announced
objective also included a review of whether repair parts were efficiently used. We will
review the use of repair parts in a separate project. See Appendix A for the scope and
methodology and a discussion of prior coverage.

Background
(FOUO) In Kuwait, the U.S. Army had approximately 2,500 TWVs1 in its Army
Prepositioned Stock (APS)-5, and over 200 TWVs in theater sustainment stocks and used
for direct theater support (DTS),2 as of November 2011. The U.S. Army was responsible
for maintaining these vehicles.

Organizational Responsibilities for Managing the Maintenance of
TWVs in Kuwait Identified
Several U.S. Army commands played key roles in managing maintenance of TWVs in
Kuwait, including U.S. Army Sustainment Command (ASC), AFSBn-Kuwait, and
U.S. Army Central (ARCENT). Army Contracting Command-Rock Island (ACC-RI) was
the contracting arm of ASC and provided contracting support to AFSBn-Kuwait.

ASC Provided Combat Service Support
(FOUO) ASC’s mission, as a subordinate command of the U.S. Army Materiel
Command, was to provide combat service support to soldiers serving in combat
commands in the continental United States and overseas to ensure expeditionary
warfighting readiness. ASC personnel managed and executed the U.S. Army’s materiel
distribution and redistribution process, including the maintenance of TWVs in Kuwait,
Qatar, and Afghanistan. Also, ASC personnel commanded a network of U.S. Army field
support brigades and battalions to provide forward logistics support to the U.S. Army.
AFSBn-Kuwait, located at Camp Arifjan, Kuwait, and 402nd Army Field Support Brigade
were among the brigades and battalions serving under ASC.

1
    See Appendix B for descriptions of the different categories of TWVs in the Army inventory.
2
    For definitions of these and other terms, see the Glossary.
                                     FOR OFFICIAL USE ONLY
                                               1
AFSBn-Kuwait Missions
~~19 ~ ) AFSBn-Kuwait had three main mission areas: APS-5, retrograde, and direct
theater supp01i . AFSBn-Kuwait personnel also executed more than 40 other missions,
including contracting officer's representative (COR) responsibility for task order BA-02.
Figure 1lists the inherent missions of AFSBn-Kuwait.

                      (F'8l98) Figure 1. Inherent Missions of AFSBn-Kuwait



                                              In he rent Missions
       • Tneruer Susta1nmenr           • Tire Assembly Repair             • C lass IX Warehouse ( 14,200    • LooaiARCENT Issue
         Stocks (TSS) (5000 pes)         Program (TARP) (7,200 tire         lines of OPSTOCK), Class          M.ss1ons (local un1ts)
       • MRAP Sustainment Facility       assemblies cap;~blilty/month)      IX Job Box Warehouse            • PM CREW Coordinabon
         (MSF) Accountablllty, OA,     • KALMAR Program                   • Depor-tevel DSETS Test and      • PM FBCB2 Coordination
         and Trans Ccordrnabon         • Basic Issue Items (811)            Repair Faoli~Y                  • Downlo\1\'n Caterpillar
       · Central Reoe,v lng and          Warehouse (harvesting,           • COMMO lest Facll~                 Coordination
         Shippong Point ( CRSP)         Gortmg, tmd pact-te_ging)         • Z Palnl Booth Opcralions        • TPER (Theater
       • 287 Operational Needs         · MARGENT ! Marine Central )       • Motor Pool (9 WOrK centers!       ProVIded EqUipment
         Sratemem (ONS) 612              SOG (Soeoa l OperatiOfiS           186 Bays, 4 PEBS)                 Refurbishment)
         pieces or Rolling Stool\;       Group) Program                                                       Coordination
                                                                          • AG cteanlflll or aiiTPE on
         3007 pieces or Non Roiung     • l.3 Contract (Alr Force            Ardjan and KNB Wash             • Ort-Sde FO X Dealer
         Stoc k                         contract)                           Racks (2 11 polnls)             • Olf.S1e t<ALMAR dealer
       • CENTCOM Tneater               • DV ToUr!.( oveJ 250              • Internal and Exte rnal Convey   • Thea1er Purge Pit
         Reserve (CTR) (333 pes )        ~1sonnolr~ FY2010)                 OperauonOt (Crane, TEREX,         Operations
       • Forelgn Milltary S"les        • COMMO lnslatlations                Forklift, Dnve-on, Tow and
         (FMS) (588 pc:s) for ANA                                                                           • TC-AIMS
                                       • Packa,g lng and CrEtin{! S hop     Drive Under Own Power
        ::~rldANP                                                           Loadrng and Downloading af      • ADA Yard Management
                                       • SmaQE ngi ne Repair, FSS,                                          • CECOM Harvesti ng and
       • Heavy Ass1stance A<M SJJry                                         CULT Assell!)
                                         aod Air Conditio rung Repair                                         AG Cleaning
         Brigade (HMB) 1703 pes )                                         • PM Heavy CoOfdinauon
                                       • ExternaiAPOD. SPOO Tr~ns
       • Add on Am1or miSsions                                                                              • Class Ill POL Point
                                         Coordination and Loading
         (M113famlly, LSAC, Fueler                                                                          • Container Repair
                                       • 1\Jii ed Trades Shop
         FamilY)
                                       • De-processing ot New
       • JSLIST Sort Miss1on
                                         Equipment Team
       • BUSKfTUSK Urban
         Survlvabll,t y Kll M1ss1on

                                      "Mission Focused ... Support Drivenn
                                                            UNCIASSIFICO~




                                                     Somce: AFSBn-Kuwait

~~1!;~ ) While AFSBn-Kuwait was organizationally under ASC, operationally,
ARCENT directed AFSBn-Kuwait by guiding maintenance priorities. According to
AFSBn-Kuwait personnel, as of July 2011 , the battalion had 94 personnel on hand; 25 of
which were contractors.

ARCENT Provided Priorities for DTS Maintenance
ARCENTwas the Almy Service Component Command assigned to U.S. Central
Command and provided continuous oversight and control of U.S. Almy operations
throughout the U.S . Central Command area of responsibility. ARCENT was
headquatiered at Shaw Air Force Base, South Carolina, and also had a fmw ard
headqua1iers located at Camp AI-ifjan, Kuwait. ARCENT persom1el provided DTS
maintenance pt-iorities to AFSBn-Kuwait.



                                                                     2
Contract Task Order BA-02 Awarded in Support of
AFSBn-Kuwait's Missions
ACC-RI pers01mel awar ded contract W91 1SE-07-D-0006, task order BA-02 in
Febmruy 2010. The contract was awru·ded to ITT 3 as prui of the Field and Installation
Readiness Supp01i Team (FIRST) Program 4 in supp01i of AFSBn-Kuwait's missions an d
was valued at $848.91 million as of April 18, 2012. To supp01i APS-5 and DTS in the
U .S. Centml Command area of operations, task order BA-02 's perfonnance work
statement contained the following main tasks:

    •   APS operations,
    •   equipment retrograde operations,
    •   direct theater support operations,
    •   base operations,
    •   infonnation technology operations,
    •   Government fumished equipment operations ,
    •   maintenance supp01i operations,
    •   supply supp01i operations,
    •   quality conu·ol an d process improvement services, an d
    •   logistics and m aintenance operations center services.

The perf01man ce work statement also included rumexes for six special tasks, such as
refurbishment of U.S . M ru·ine Corps and Cenu·al Cornman d vehicles and the Tire
Assembly Repair Program operations.

ACC-RI personnel awar ded the conu·act as a fum -fixed price (FFP)/cost-plus-fixed-fee
(CPFF) hybrid that included a base yeru· and fom , 1-yeru· options. ACC-RI personnel
negotiated th e FFP portion of the conu·act based on ITT's proposed labor hom s and rates,
oth er direct costs, and vru·ious overhead costs . ITT personnel conducted APS-5
maintenance lmder one of the FFP p01iions of the conu·act. These FFP poriions were not
subject to any adjustment based on the actual costs incmTed. The CPFF poriions of the
conu·act reimbm sed the conu·actor for costs incmTed; however, ACC-RI should not
reimbm se th e conu·actor for costs that exceeded th e conu·act ceiling. In addition, ACC-RI
paid the conu·actor a fixed fee that it established at the strui of the conu·act. The fixed fee
should not vaty with actual costs but may adjust as a result of changes to the work to be
performed. ACC-RI personnel set the fixed fees atl l percent for the missions included
in the original conu·act and at generally     ill
                                                percent~ missions that were added after
conu·act awru·d. ACC-RI personnel based CPFF conu·act costs               labor hom s and rates,
oth er direct        and overhead for work .,..,.,,.+,....,....... ,,r~




3
 ITT separated into three independent companies in October 2011.
4
 The objective of the FIRST Program was to provide a means to strategically consider the most effective
method of satisfying reoccm1·ing logistical suppmt requirements. Anny Contracting Agency executed the
FIRST Program tlll'ough multiple indefmite delivery, indefmite quantity contracts.
                                                    3
Review of Internal Controls
DoD Instruction (DoDI) 5010.40, “Managers’ Internal Control Program (MICP)
Procedures,” July 29, 2010, requires DoD organizations to implement a comprehensive
system of internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of controls. ASC did not sufficiently staff
AFSBn-Kuwait with experienced personnel to conduct oversight over the maintenance
portions of task order BA-02. In addition, AFSBn-Kuwait’s Quality Assurance
Maintenance Work Plan did not require AFSBn-Kuwait personnel to approve repairs
before the contractor could begin work or review contract labor hours billed. We will
provide a copy of this report to the senior official responsible for internal controls in the
Department of the Army.




                                              4
                                   FOR OFFICIAL USE ONLY



Finding A. Contractor Did Not Meet
AFSBn-Kuwait Mission
AFSBn-Kuwait’s contractor, ITT, did not effectively execute maintenance for TWVs in
Kuwait. In response, DoD contracting personnel5 issued 149 corrective action and
contract discrepancy reports, show cause and cure notices, and a partial termination for
default to ITT; however, ITT’s performance still did not meet contract requirements. This
occurred because ACC-RI used a contract type and method that did not incentivize the
contractor to perform quality work. Specifically, the procuring contracting officer6
awarded task order BA-02 without sufficient measurable performance standards and
quantifiable outcomes, or adequate incentives. As a result, warfighters in Southwest Asia
and their missions were at risk. For example, the APS-5 set may not be ready for timely
issuance to the United States and its Allies responding to contingency operations. DTS
equipment was not always ready to meet deadlines in support of contingency operations.
In addition, ITT personnel left APS-5 and DTS equipment exposed to theft and damage,
which jeopardized AFSBn-Kuwait’s ability to issue that equipment to units at the required
maintenance standard and time frame to support their missions.

We issued a memorandum on October 18, 2011, suggesting that ASC and ACC-RI
consider issuing a new contract because of problems with the contract and the contractor’s
performance. On November 22, 2011, the Executive Deputy to the Commanding General,
U.S. Army Materiel Command, responding on behalf of ASC and ACC-RI, stated that
ASC and ACC-RI officials initiated plans to award a new contract by June 1, 2012.7
However, on February 29, 2012, the procuring contracting officer issued a modification
exercising option year two at $302 million. The period of performance for the option year
was from March 1, 2012, through February 28, 2013.

Maintenance Mission Needed Better Contractor Support
ITT did not effectively execute maintenance for TWVs by not meeting contract
requirements for APS-5 readiness, DTS, and the accountability, security, and reporting of
equipment. Between June 2010 and January 2012, DoD contracting personnel
documented ITT’s poor contract performance through 149 corrective action reports and
contract discrepancy reports, show cause and cure notices, and a partial termination for
default.




5
  (FOUO) DoD contracting personnel included contracting personnel from the Defense Contract
Management Agency, ACC-RI, and AFSBn-Kuwait.
6
  The ACC-RI procuring contracting officer who awarded the contract stated that he gave the responsibility
for task order BA-02 to a new procuring contracting officer in August 2010.
7
  See Appendix C for our memorandum and the U.S. Army’s response.
                                   FOR OFFICIAL USE ONLY
                                             5
APS-5 Readiness Rates Not Met
ITT persotmel did not meet the required readiness rate for APS-5. The contract stated that
ITT should manage all aspects of APS stocks to ensure the required readiness is met so the
equipment can be issued when needed. However Defense Contract M;:~ml ge:m~~nt




Repair of Vehicles for DTS Missions Not Efficient or Timely
~8l!Y8 ) ITT personnel did not efficiently repair vehicles for DTS missions in a timely
         9
manner. The contract stated that ITT personnel will maintain the equipment to Technical
Manual -1 0/20 standar ds, 10 maintain accountability of the equipment, and issue it.
                                                                                .             .




8
  (FEJUEJ) Theillil pieces of equipment included TWVs, tracked vehicles, weapons, and other equipment.
9
  These repairs fall under the CPFF portion of the contract.
10
   The Anny' s maintenance standard is refen·ed to as the Technical Manual - 10/20 standard. Anny
equipment meets this standard when the equipment is fully mission capable, preventative maintenance is
conducted as required, all required modifications have been applied, and authorized basic issue items are
present.
11




                                  f'8R 8f'f'l@lftls "8819      8P~#
                                                6
                             F8:R 8FFl@Js'i+J l!T819 8Nls¥




Better Accountability and Security of Equipment Needed
(F~lsT~)  ITT personnel did not provide adequate accountability and security of APS-5
and DTS equipment. The contract stated that ITT p ersonnel will maintain accountability
of all vehicles and provide security of the APS-5 and DTS     ·       Defense Conn·act
                       and AFSBn-Kuwait




Inaccurate Reporting Occurred
(F~lsT~)  ITT personnel did not always meet the conti·act requirements for reporting the
status of APS-5 and DTS equipment. The conn·act required that ITT personnel provide
management and technical inf01m ation to U.S . Anny personnel. H owever Defense
Contract                       and AFSBn-Kuwait               issued




Other Performance Issues Identified




                                            7
Contract Type and Method Were Not Appropriate
ACC-RI persotmel 's used a conu·act type and method for awarding task order BA-02 that
was not appropriate for AFSBn-Kuwait's oversight environment ACC-RI personnel
awarded task order BA-02 as a FFP/CPFF hybrid, which did not always include
measm able perf01m ance stan dards with quantifiable outcomes or adequate incentives in
th e perf01m an ce work statement

Change in Contract Type Needed for AFSBn-Kuwait Oversight
Environment
~81!9"8 ) ACC-RI 's use of a FFP/CPFF hybrid contract type was not appropriate for
AFSBn-Kuwait's oversight environment AFSBn-Kuwait had COR responsibility for task
order BA-02, but had limited staff to oversee the -      conu·actor personnel assigned to
the conu·act This left AFSBn-Kuwait personnellmable to oversee critical pmis of the
contract Using a FFP/CPFF hybrid conu·act type in a limited oversight environment
increased the risk for th e conu·actor to underperfonn on the FFP portions of the conu·act
ITT personnel conducted APS-5 maintenan ce under the FFP p01iion of th e conu·act
According to the previous maintenance COR, AFSBn-Kuwait personnel reviewed
20 percent of the preventative maintenance              on APS-5       ·      each month .
The COR fmi her stated th at ITT



operational environment

Measurable Performance Standards Not Always Included
ACC-RI personnel did not always mi iculate measm able perf01m an ce stan dai·ds with
quantifiable outcomes in task order BA-02 's perf01m ance work statement ACC-RI
personnel affected AFSBn-Kuwait's ability to adequately assess the conu·actor 's
perf01m ance and can y out the battalion 's oversight mission by not including measmable
perf01m ance standards. For instance, ACC-RI personnel included insufficient
perf01m ance measmes for the DTS maintenan ce mission. In the description for this task,
th e conu·act stated the contractor should staff and manage maintenan ce operations to
ensme maximum production capacity using th e most efficient utilization of facilities,
equipment, pmis, personnel and time. However, the perf01m ance work statement did not
include any measm es for how AFSBn-Kuwait would assess whether ITT achieved the
maximum production capacity using the most efficient use of facilities, equipment, pmis,
personnel, and time. With out measm eable criteria provided in the perfon nan ce work
statement, AFSBn-Kuwait personnel could not dete1mine if ITT personnel have achieved
this task



                             F~ll ~FH~k\15      "WSI§   ~Nis¥
                                            8
                              f'8R 8f'f'l@lftls "8819   8P~#



Federal and DoD regulations and guidance illustrate the importan ce of including
measurable standar ds with quantifiable outcom es in perfonnance-based conu·acts . Federal
Acquisition Regulation, subpa1t 37.6, " Perf01m ance-B ased Acquisition," states that
perf01m ance-based conu·acts for services should include measurable perfonnance
standards an d the m eth od of assessing th e conu·actor 's perf01m ance against those
standards. The conu·act should provide m easurable perf01m ance standards with a
structure to permit an assessment of the conu·actor 's perfon nance to ensure that oversight
of the conu·act can be achieved.

Adequate Incentives Needed to Control Costs in a
Performance-Based Contract
eP8~8) ACC-Rl personnel did not include adequate incentives in task order BA-02 for
ITT to conu·ol costs. Specifically, ACC-Rl personnel did not include procedures in the
conu·act' s perfon nance work statement that specified any price or fee reductions for
unsatisfact01y perfon nance. Rather, th e procuring conu·acting officer's su·ategy was to
document poor perfon nance using con ective action and conu·act discrepan cy rep01ts an d
show cause and cure notices. The procuring conu·acting officer's su·ategy was not
adequate or effective because ITT continually perf01m ed at an lmsatisfactOiy leveL

DoD an d U.S. Army guidan ce address the need for perf01m ance conu·acts to include
perf01m ance incentives. U.S. Army Materiel Command Pamphlet 7 15-17, "Guide for the
Preparation an d Use of Perf01m ance Specifications," Febmaty 11, 1999, states that service
conu·acts should include incentive provisions to reward quality perf01m an ce an d
discourage unsatisfact01y perfon nan ce. The Office of the Under Secretmy of Defense for
Acquisition and Technology "Guidebook for Perf01m ance B ased Setvices Acquisition in
th e Depmtment of Defense," December 2000, states th at a perfon nance-based conu·act
should specify procedures for reductions of prices or fees when setvices are not perfonned
or do not m eet conu·act requirements. ACC-Rl personnel should incorporate incentives
into the conu·act to m otivate the conu·actor to provide the best quality and cost-effective
perf01m ance and provide te1ms to address less than satisfact01y perf01m ance.

Warfighter Missions at Risk


eqmpment         as patt                                               role in rapidly
equipping forces deploying to contingency or other operations. The APS-5 set stored in
Kuwait was important because of its close           to the cunent
in Southwest Asia.




                              f'8R 8f'f'l@lftls "8819   8P~#
                                             9
Plans for a New Contract and Extension to Current
Contract
~~W~) On October 18, 2011 , we issued a memorandum suggesting that, because of
problems with th e contract and contractor 's perf01mance, ASC and ACC-RI should award
a new conu·act. The Executive Director, ACC-RI, in coordination with ASC, responded in
a memorandum endorsed by the Executive Director, ACC, and the Executive Deputy to
the Comman ding General, U.S. Almy Materiel Command, on November 22, 2011, stating
th ey initiated planning to compete a new conu·act for theater maintenance eff01is in
Kuwait by June 1, 2012. The Executive Director also stated that the new conu·act would
include lanflage on perf01mance incentives and perfonnance stan dards with measurable
outcomes. 1 Although the Executive Director stated that ASC and ACC-RI personnel
planned to award a new contract, it is critical for ASC and ACC-RI personnel to take
immediate action to award the conu·act. A new conu·act that considers the oversight and
operational environment of AFSBn-Kuwait and includes language that incentivizes th e
contractor would provide more timely support for ongoing militruy operations.

On Febmruy 29, 2012, the procuring conu·acting officer issued a modification exercising
option yeru· two at $302 million. The period of perf01mance for the option yeru· was from
Mru·ch 1, 2012, through Febmruy 28, 2013. To mitigate the risk of conu·actor
nonperf01mance, it is imp01iant th at the conu·acting officer attempt to amend the cmTent
contract to include incentives for good contractor perf01mance. It is also critical that the
Executive Director quickly address the limited number of personnel available for the
oversight of the conu·act as discussed in Finding B.

Management Comments on the Finding and Our
Response
A sUIIllnruy of the comments from the Executive Director, ACC-RI on the fmding follow,
along with our response. The complete text of the Executive Director 's comments can be
found in the Management Comments section at the end of the rep01i.

Comments on Structure and Type of Task Order BA-02
The Executive Director provided general comments on the cmTent stm cture and type of
task order BA-02 and those comments were endorsed by the Executive Deputy to the
Commanding General, U.S. Alm y Materiel Command. The Executive Director stated th at
ACC-RI stm ctured a p01iion of the cunent conu·act as FFP which offers the highest level
of incentives for the conu·actor to perfonn because the contractor assumes all risk
associated with cost and profit. In addition, he stated that the CPFF p01iion of the conu·act
had the effect of incentivizing th e conu·actor as the fee was only paid for quality


12
     See Appendix C for om memorandmn as well as the U.S. Almy's response.
                                   F~ll ~FH~k\15        "WSI§   ~Nis¥
                                                   10
perfonnance as defined in the perf01m ance work statement. Specifically, he stated that the
procming contracting officer withheld fees on all cost over-nms, and proportionately
withheld fees when mission requirements were delivered late. The Executive Director
stated that this combination of approaches provided incentives for the conu·actor to conu·ol
costs and perfon n timely and successfully. Also, he stated that all tasks within the
perf01m ance work statement include quantifiable perf01m ance measm es. However, he
stated that the new conu·act would improve incentive an angements by including a
cost-plus-incentive-fee an angement.

Our Response
Task order BA-02, structured as a hybrid FFP/CPFF conu·act-type, did not provide
incentives for the contractor to conu·ol costs and perf01m in a timely and successful
manner. Conversely, we fmmd that the hybrid conu·act increased risks for both the FFP
and CPFF conu·act p01iions, considering AFSBn-Kuwait's limited oversight environment.
Without adequate oversight, the FFP/CPFF conu·act-type allowed the conu·actor to
underperfon n on the conu·act 's FFP      · . For             the f01m er lead COR stated
that ITT

    conu·actor rmmmum mcentlve to               costs. The procming conu·acting officer's
incentive su·ategy was not adequate or effective because ITT continually perfonned at an
unsatisfact01y level, as evidenced by the 149 con ective action and conu·act discrepancy
rep01is, a pruiial te1mination for default, and other notices of unsatisfact01y perfonnance
issued by DoD personnel for task order BA-02.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Commander, U.S. Army Sustainment Command, in
coordination with the Executive Director, Army Contracting Command-Rock
Island:
       1. Amend the current contract to include provisions that incentivize the
contractor for efficient and economical performance.
       2. Replace the current contract before option year two ends with a new
contract (or contracts) for the missions associated with the Army Prepositioned
Stock-5, retrograde, and direct theater support that considers the oversight and
operational environment of the Army Field Support Batallion-Kuwait missions in
Kuwait. The new contract should include contract language that incentivizes the
contractor for efficient and economical performance as well as provides measurable
requirements with quantifiable outcomes.

Department of the Army Comments
The Executive Director, ACC-Rl, paliially agreed with Recormnendation A.l and the
Executive Deputy to the Cormnanding General, U.S. An ny Materiel Command, endorsed
all the comments provided. The Executive Director stated that modifying task order
BA-02's option yeru· two to include additional incentive ruTangements would not likely

                                             11
produce the desired results because the period of performance remaining in the option year
was so short. However, the Executive Director agreed with Recommendation A.2 stating
that ACC-RI would award a new contract before the end of task order BA-02’s option
year two. He stated that the procuring contracting officer published a sources sought
announcement in January 2012 as the first step to planning and conducting that
acquisition. The Executive Director explained that because of the acquisition’s high dollar
value and required approval levels, it was necessary to exercise task order BA-02’s option
year two. He added that awarding option year two allowed time to conduct the required
solicitation reviews and approvals, evaluations, award, and transition of a new contract.

Our Response
Comments from the Executive Director were responsive, and no further comments are
required. Because ACC-RI plans to recompete the current contract by 4th Quarter
FY 2012, we acknowledge that the procuring contracting officer may not have enough
time to achieve the desired effect for task order BA-02 option year two. However,
ACC-RI would have had sufficient time to achieve the desired impact had it taken
responsive action upon receipt of our October 18, 2011, memorandum.




                                            12
Finding B. Contractor Needed Better
Oversight
AFSBn-Kuwait personnel did not provide appropriate contract oversight to validate that
repairs were needed and labor hours billed were accurate. This occmTed because ASC
did not sufficiently staff ASFBn-Kuwait with experienced personnel to oversee the
contract. Of the 13 oversight personnel we interviewed, 11 did not have experience in
providing contract oversight before being assigned to AFSBn-Kuwait. Also, the Quality
Assurance Maintenance Work Plan did not generally require AFSBn-Kuwait personnel to
approve repairs before the contractor could begin work, or review conu·act labor hours
billed. As a result, ITT personnel ordered and installed almost 4 million repair palis and
billed $160.75 million 13 for maintenance labor hours worked and the U.S. Almy did not
have assurance that those costs were justified.

Adequate Oversight Required
Federal guidance requires DoD managers to establish adequate oversight and intemal
conu·ols to meet mission goals and conu·ol costs. Federal Acquisition Regulation,
subprui 16.3, "Cost-Reimbursement Conu·acts," states that cost-reimbursement conu·acts
may only be used when appropriate DoD surveillance during perf01mance will provide
reasonable assurance that efficient methods and effective cost conu·ols are used. Fmiher,
it states that CPFF conu·acts 14 provide the conu·actor minimum incentive to conu·ol costs.
Therefore, CPFF conu·acts maximize the Govemment's responsibility to conu·ol costs.

CORs Need to Be More Involved in Maintenance
Oversight
AFSBn-Kuwait had COR responsibility for task order BA-02 and did not provide
appropriate oversight to validate that repairs were needed and labor hours billed were
accurate. ACC-RI delegated several responsibilities to the CORs and altemate CORs
tasked with providing oversight over task order BA-02. AFSBn-Kuwait also had quality
assurance specialists assisting with maintenance quality assurance. Specifically,
AFSBn-Kuwait personnel were responsible for monitoring the conu·act's perfonnance by
inspecting and verifying that ITT personnel con ected any deficiencies and conducting
final inspection of the services provided. As shown in Figure 2 (page 14), ITT personnel
perf01med inspections of vehicles, identified the maintenance needed, and then conducted
that maintenance. After ITT personnel conducted the maintenance, AFSBn-Kuwait
personnel provided quality assurance by checking to ensure the vehicles were maintained
to the required standard. However, AFSBn-Kuwait personnel were not involved before
the maintenance statied, unless ITT detetmined a vehicle needed a repair pati valued at
$5,000 or more.




                                             13
                                 Figure 2. TWV Maintenance Process
                                           NO GOVERNMENT OYERSIGHT
                                                                                                                            YES
                                                                                                                         (o<>CUNd        AFSRn-Kuwail Conh~cri~
                                   ITI Qmlity Control
                                                                                                                       0.01 perttm         Officer's Represenl!Jtiw
                             ln£Vet1.cd 'JWV, "'"' ideutirJCd                                             >-- -- of_l _
                                                                                                                      b c_lin    ) +I Verified tha.t ~le pan is required
                                                                                                                           _· _1c'-
                            fi~u bs m tt.l l"tp~tir   pans required 10                                                                     l ObriO,$ U1c Veil icle 10 lhe
                             bring Jhe vehicle to a s~cifiod                                                                             :>J)CCirie<hlandard before I 'IT
                                        standard                                                           ~0                                condticted lllaiJ"enancc
                                                                                                     (occurcd
   Example of Heavy TWV
     needing m aintenance
                                                                                                99.99 pcrctOt
                                                                                                 of lbcliu~e)


                                                                              ITT W0rk C enl er

                                                                    C(10dud .c d m:Linl.en:mcc on TWV




                                                                            ITT ( >u:Ji1Y c~ntr<'l
                                                                  Colldu(:ttd flna.J   itu:p~ction   to   onsu~
                                                                 work IS completed 10 slandard all rcp11ir
                                                                  pans were used, and all pllpa-work is



                                                                                                                                            AFSBn-K'UWOii
                                                                                                                                          Qmlity A<;surance

                                                                                            .1 fl-"lill---- - +l Assesst<llhc \'chi de to ensure
                                                                                                                                       meets the required standard
                                                                                                                                          and thai ill associacd


                                                                         Heavy TWV ailer ITT fiOJformcd
                                                                            mainttnimcc. ~md ready for
                                                                             Covernmcnl in~1,caion

                                      Source: ITT and AFSBn-Kuwait persom1el

Between May 2010 and
a total cost of about

                                                            WI           oversight or
assurance            repair parts were                        -Kuwait personnel were
not involved until ITT personnel completed the maintenance, the US. Anny did not have
assurance that the maintenance was needed. An AFSBn-Kuwait official stated that he
believed that AFSBn-Kuwait could approve the contractor's proposed maintenance before
they begin work. However, he stated AFSBn-Kuwait did not have the staff available.

Contractor May Have Performed Unnecessary Maintenance
~~~~)  During our review of work orders, we identified one work order for a
M1074P1 Palletized        Tmck that was closed out on March 1 2011 in which ITT
                              f'8R 8f'f'l@lftls "8819   8P~#




Better Oversight Needed Over Labor Hours Billed
~81!9"8)  AFSBn-Kuwait personnel were also not involved in ov~~rs~~entg
contract labor hom s billed.



                         persoiJlllel were not        m                     oversight.
Thus, there was an increased risk associated with ITT's invoices and DoD oversight was
essential.




                               tnne          on the invoices to the timecards, but did not
verify that the labor homs listed on the timecards were accmate. In addition, according to
a Defense Contracting Audit Agency official, they have not verified the             of labor
homs on timecards for this contractor since 2005.

                              to                              actmg              . or,
                 acknowledged that the battalion did not review invoices for accmacy.

~8l!Y8) To illustrate the risk of the U.S . Anny paying for services that were potentially
~erfonned, we reviewed the timecards of 25 ITT personnel, selected out of over
- I T T personnel working under task order BA-02, and compared them with

                              f'8R 8f'f'l@lftls "8819   8P~#
                                           15
~~W~ )        the security system used to track ..,.u....v
         15                             16
               For those 25                we




procurmg contractmg                          contractmg                contracting officer's
representative, an d Defense Contract Audit Agency officials of this issue for their review
and action, which could include recouping any costs associated with inaccurate labor hour
billings.

AFSBn-Kuwait Not Adequately Staffed
ASC did not staff AFSBn-Kuwait with sufficient number of personnel or personnel
experienced in contract oversight to provide sufficient oversight of the $160.75 million of
maintenance conducted under task order BA-02. According to AFSBn-Kuwait personnel,
th ere were only 25 DoD personnel, which included CORs, altemate CORs, 17 an d quality
assurance specialists, providing oversight for maintenance conducted lmder task order
BA-02. 18 An AFSBn-Kuwait official stated that when the battalion was established in
Kuwait, its only mission was to maintain the APS-5 set. The AFSBn-Kuwait official
added that since then, several additional missions were added, including DTS; however,
AFSBn-Kuwait did not receive any additional personnel. ASC personnel developed the
Quality Assurance Surveillance Plan an d AFSBn-Kuwait developed the Quality
Assurance Maintenance Work Plan. AFSBn-Kuwait personnel used these documents to
guide their oversight of task order BA-02.

Along with being understaffed to provide adequate oversight over maintenan ce, most
AFSBn-Kuwait personnel did not have any experience in providing contract oversight.
We interviewed 13 AFSBn-Kuwait personnel who provided oversight for task order
BA-02 and th eir average amount of experience in providing contract oversight was less
th an 3 months. In fact, 11 out of the 13 oversight personnel that we interviewed did not
have any experience in contract oversight before being assigned to AFSBn-Kuwait. 19
Fmthe1more, one of the CORs stated that AFSBn-Kuwait's personnel rotation rate greatly
affected the battalion 's ability to provide oversight. He explained that it can take up to

15
   The Defense Biometric Identification System was the secw1ty system used to track personnel entering and
exiting Camp AI-ifjan. The Defense Biometric Identification System served as a physical access control and
critical property registration system, using bar codes and biomet:I-ics to identify cardholders.
16
   We collected ITT employees' timecards for a pe1-iod of 2 months between June 2011 and July 2011 .
However, we were only able to obtain Defense Biometric Identification System data for each ITT employee
for select days between June 1, 2011 , and July 31 , 2011. For the 25 ITT employees' timecards we reviewed,
we were able to compare 211 instances with the Defense Biomen·ic Identification System data.
17
   A representative of AFSBn-Kuwait stated that as of August 2011 , AFSBn-Kuwait personnel were no
longer designated as alternate CORs. Instead, all personnel ACC-RI delegated with contract oversight
responsibility were CORs.
18
   EfOWO) On June 1, 2011 , the procw1ng contracting officer delegated the authority to perfmm contract
adminisn·ation fimctions to the Defense Contract Management Agency.
19
   Although not expe1-ienced in providing contract oversight, the 13 AFSBn-Kuwait personnel that we
interviewed averaged almost 17 years of maintenance expe1-ience each.
                                    f'8R 8f'f'l@lftls "8819    8P~#
                                                 16
4 months to train new personnel and since the assignment with AFSBn-Kuwait was
typically 12 months long, only 8 months were left for personnel to be able to operate at a
high level. He added that AFSBn-Kuwait personnel designated as CORs did not receive
the required COR training until they reported to Camp Arifjan for duty which added to the
time required before CORs could operate as needed. Because of these issues, the COR
stated that the assignment with AFSBn-Kuwait would be better as an 18-month tour.
ASC, as AFSBn-Kuwait’s higher command, should conduct an assessment to determine
the appropriate number and experience level of personnel needed, consistent with the risk
associated with a cost-reimbursement type contract, so AFSBn-Kuwait personnel can
provide the oversight necessary to ensure that the contractor conducts cost-effective,
necessary maintenance. The February 2012 contract extension makes it critical that ASC
conduct the COR staffing assessment by the end of third quarter FY 2012. ASC should
then staff AFSBn-Kuwait accordingly.

Maintenance Work Plan Should Include Additional
Procedures
AFSBn-Kuwait personnel did not establish sufficient quality assurance procedures to
ensure that maintenance was necessary and labor hours billed were accurate.
AFSBn-Kuwait personnel developed their Quality Assurance Maintenance Work Plan20 to
guide their contract oversight, but that plan did not outline procedures to approve the
contractor’s proposed maintenance or address the accuracy of labor hours billed by the
contractor. The Quality Assurance Maintenance Work Plan applied to all personnel
assigned to AFSBn-Kuwait’s Quality Assurance section in Camp Arifjan, which included
those personnel with COR responsibility and those conducting quality assurance on
maintenance, and described the basic duties responsibilities of those personnel, as well as
the procedures they should follow. However, the Quality Assurance Maintenance Work
Plan did not require that AFSBn-Kuwait personnel approve the contractor’s proposed
maintenance, unless the contractor determined that a repair part valued at $5,000 or more
was needed, and it did not require AFSBn-Kuwait personnel to verify that the contractor’s
billed labor hours were accurate.

CPFF contracts, such as task order BA-02, provide the contractor minimum incentive to
control costs. As a result, this type of contract maximizes the U.S. Army’s responsibility
to control costs. The U.S. Army was unable to ensure that maintenance conducted was
necessary and labor hours billed were actually worked because ASC did not sufficiently
staff AFSBn-Kuwait with experienced personnel to conduct oversight. The Defense
Contract Management Agency should ensure that oversight personnel develop procedures
that substantiate that the repairs and associated repair parts proposed by the contractor for
maintenance are necessary before the contractor can begin work. In addition, the
procuring contracting officer needs to establish a capability to perform reviews of




20
  AFSBn-Kuwait’s Quality Assurance Maintenance Work Plan was the internal operating procedures used
by the AFSBn-Kuwait personnel as their methodology in conducting oversight of the maintenance work.

                                                 17
ITT timecards onsite in Kuwait and engage the Defense Contract Audit Agency to perfon n
detailed reviews of labor costs charged to the conu·act and recoup any costs associated with
inaccurate labor hour billings.

Risk of Unnecessary Maintenance and Cost Increases
~~U~) Without adequate oversight, CPFF conu·acts provide the conu·actor only a
minimum incentive to conu·ol costs. Because AFSBn-Kuwait personnel were not involved in
the maintenance process lmtil the end, ITT personnel made decisions that may not have been
in the best interest of DoD an d there was a risk that ITT personnel may have perf01m ed
unnecessruy maintenance. As ofNovember 2011, ITT billed the U.S . Almy               ·
$160.75 million for maintenance conducted in Kuwait lmder task order


                                                                    expen ence            oversight
      ...,J. . ....,,.. maintenance mission to reduce unnecessruy cost risk and encourage
economical perf01man ce. Conu·act oversight personnel should be involved in dete1mining
whether maintenance is necessruy before ITT can begin work and that the labor hours billed
by ITT reflect the maintenance completed.

Recommendations, Management Comments, and Our
Response
Redirected, Renumbered, and Revised Recommendations
The procuring contracting officer delegated task order BA-02 conu·act adminisu·ation, to
include managing conu·act oversight, to the Defense Contract Management Agency-Middle
East and requested fmi her delegation to the Defense Conu·act Management Agency-Kuwait
As such, we revised draft Recommendation B.1.c and renumbered the recommendation
as B.2. We also renumbered draft Recommendations B.2.a and B.2.b as B.3.a and B.3.b,
respectively.

B.l. We recommend that the Commander, U.S. Army Sustainment Command:

        a. Conduct an assessment by the end of third quarter FY 2012 to determine the
sufficient number and experience level of contracting officer's representatives needed
to oversee the tactical wheeled vehicle maintenance missions of Army Field Support
Battalion-Kuwait.

       b. Upon the completion of Recommendation B.l.a, staff the Army Field Support
Battalion-Kuwait with the appropriate number of qualified personnel to provide
adequate oversight for maintenance to be conducted by a contractor.

Department of the Army Comments
The Commanding General, ASC, agreed with Recommendation B.1.a and the Executive
Deputy to the Comman ding General, U.S. Almy Materiel Command endorsed all the
comments provided. The Commanding General, ASC stated that ASC will coordinate with
                            F~ll ~FFI@k~ \.181!: ~NisY
                                          18
ACC-RI to determine the experience level and the number of CORs required for contract
oversight of AFSBn-Kuwait’s tactical wheeled vehicle maintenance missions by June 30,
2012.

The Commanding General, ASC, agreed with Recommendation B.1.b. She stated that ASC
will identify the recommended COR staffing based on mission requirements by July 31,
2012. She stated that the staffing requirements will vary as mission requirements change.
She explained that ASC will meet requirements using temporary assignments or reallocation
of existing personnel authorizations as mission priorities allow. The Commanding General
stated that any requirement for additional personnel is subject to Department of Army
procedures and approval levels.

Our Response
The Commanding General’s responses to Recommendations B.1.a and B.1.b were
responsive and met the intent of those recommendations. As such, no further comments are
required.

B.2. We recommend that the Director, Defense Contract Management Agency require
Defense Contract Management Agency-Kuwait personnel to develop and implement
procedures that substantiate repair parts and labor hours proposed by the contractor
for maintenance are necessary before the contractor can begin work.

Department of the Army Comments
The Commanding General, ASC, did not agree with Recommendation B.2. She stated that
Government pre-approval of repair parts for every work order is not a cost-effective
approach, given the magnitude and nature of the maintenance performed in Kuwait. The
Commanding General stated that task order BA-02 is a performance-based contract and the
contractor is responsible for managing the maintenance process while the Government is
responsible for overseeing that process. She also stated that the AFSBn-Kuwait Quality
Assurance Standard Operating Procedure is being updated to capture process efficiency
gains, but it will not include a 100 percent review of contractor-proposed parts requisitions or
a requirement to prepare a mini-proposal for every vehicle inducted into maintenance.

The Commanding General also stated that the Standard Operating Procedure has several
controls and procedures in place relative to Class IX repair parts. Those procedures include
that:

      the Government quality assurance inspector must verify all faults before a work order
       is opened or parts are requisitioned if a preventative maintenance checks and services
       inspection identifies the need for unscheduled maintenance, and
      Government approval is required before the contractor can acquire repair parts that
       are valued over $5,000, or to obtain repair parts through a Supply Support Activity,
       local purchase request, or controlled exchange.
The Commanding General stated that the repair parts required for the services performed as
part of the FFP portion of the contract are fairly standardized and the risk that unnecessary

                                              19
                               FOR OFFICIAL USE ONLY

parts will be purchased is considered low. She explained that for maintenance conducted
under the FFP portion of the contract, the risk is placed on the contractor to perform within
the costs negotiated. Lastly, the Commanding General stated that for maintenance conducted
under the CPFF portion of the contract, contractor performance is measured in terms of
direct hours expended as compared to the Maintenance Allocation Chart direct hours.

Our Response
(FOUO) The Commanding General’s comments were nonresponsive. The procedures
outlined in the Commanding General’s comments were in place during our fieldwork.
However, those procedures were not sufficient to yield satisfactory results in oversight of
labor hours and the approval of repair parts. As the Defense Contract Management
Agency-Kuwait is now responsible for managing task order BA-02 contract oversight, we
request that the Director, Defense Contract Management Agency provide comments on
Recommendation B.2 in response to the final report by July 2, 2012.

For performance-based contracts like task order BA-02, the contractor is responsible for
managing the maintenance process, and the Government is responsible for overseeing that
process. For oversight of labor hours performed under the CPFF portions of the contract,
additional procedures are needed to ensure maintenance is necessary. Personnel charged
with overseeing task order BA-02 should become more involved in ensuring maintenance
proposed by the contractor is necessary because the cost-reimbursement type contracts
provide the contractor the minimum incentive to control costs. According to the Federal
Acquisition Regulation, if cost-reimbursement contracts such as CPFF and
cost-plus-incentive-fee contracts are used, Government surveillance should provide
                                                                                    (b)(4)
reasonable assurance that efficient methods and effective cost controls are used.
(b)(4)
       of ITT’s invoiced amounts were associated with CPFF contract line items between May
2010 and November 2011. Under those CPFF line items, the U.S. Army was responsible for
reimbursing the contractor for its labor hour costs and providing the repair parts the
contractor deemed necessary. Instead of a 100 percent review of contractor-proposed parts,
procedures should be implemented for DoD personnel to disallow maintenance proposed by
contractor personnel if it is considered unnecessary. Inspections after ITT completed the
work do not ensure that the contractor only performed the necessary maintenance or billed
the U.S. Army accurately for the work completed.

We did not review the AFSBn-Kuwait’s Maintenance Quality Assurance Standard Operating
Procedure because, as of August 2011, the battalion commander did not approve the draft.
Instead, we reviewed AFSBn-Kuwait’s approved Quality Assurance Maintenance Work
Plan, dated August 18, 2010, which laid out the same procedures the Commanding General
identified to inspect faults identified during preventative maintenance checks and services
inspections which are associated with the FFP portion of the contract. For oversight of the
FFP portions of the contract, oversight personnel should continue reviewing whether faults
identified that require a work order to be opened are valid. We also agree that any labor hour
costs associated with unnecessary maintenance in these areas would be essentially taken out
of ITT’s profit. However, the U.S. Army did not acquire the repair parts used for
maintenance conducted under the FFP portion of the contract through task order BA-02.
Therefore, any unnecessary repair parts used would be a cost to the Government. Whether
                               FOR OFFICIAL USE ONLY
                                         20
the maintenance perf01m ed was routine or not, task order BA -02 's DoD oversight personnel
need to ensme the maintenance and associated palis ar e necessruy as a prui of their oversight
policy an d procedures. In addition, the procedmes listed by the Commanding General did
not identify ways to ensure that labor hours chru·ged by ITT under task order BA -02 were
necessruy or billed accm ately. Lastly, Maintenance Allocation Chruts would merely
illustrate whether the maintenan ce conducted was completed in a reasonable timeframe, not
that the maintenance was necessruy.

We also identified concem s with the procedures for approving repair patis. The Quality
Assm an ce Maintenan ce Work Plan requir es the same Government approval as th e procedm e
identified by the Commanding General if the contractor detetmines that a repair part valued
at $5 ,000 or more is required. The Quality Assm an ce Maintenan ce Work Plan also had
procedmes related to obtaining repair patts                                   local
 ...,. __._. ....,,'"' ··••n n <>ct or controlled




         Assmance                                     revtew or       procedmes regru·ding
acquiring repair prut s valued at $5,000 or less through the Govemment supply system. ITT
personnel replaced almost 4 million patts, woti h almost -            , that were lmder the
$5 ,000 requir ement. Because AFSBn-Kuwait personne~lved until ITT
personnel completed maintenance, the U.S . Alm y did not have assurance that the
maintenance associated with those 4 million repair pruis was needed.

B.3. We recommend that the Executive Director, Army Contracting Command-Rock
Island, direct the procuring contracting officer to:

      a. Establish a capability to perform reviews of the contractor's timecards onsite
in Kuwait.

Department of the Army Comments
The Executive Director, ACC-RI, agreed with Recornmendation B .3.a, and stated ACC-RI
will request that DCMA conduct an onsite timecar d review in Kuwait.

Our Response
The Executive Director's response to Recornmendation B.3.a was responsive and met the
intent of the recommendation, and therefore, no further cornment on Recornmendation B .3.a
is requir ed.

      b. Request Defense Contract Audit Agency assistance in performing detailed
reviews of labor costs charged to the contract and recoup any costs associated with
inaccurate labor hour billings.




                                              21
                               FOR OFFICIAL USE ONLY


Department of the Army Comments
The Executive Director, ACC-RI, agreed with Recommendation B.3.b, and noted past
assistance provided by the Defense Contract Audit Agency in reviewing ITT’s billings and
invoices.

Our Response
(FOUO) While the Executive Director agreed with Recommendation B.3.b, we found his
                                                                                        (b)(4)
comments to be nonresponsive. We acknowledge the Executive Director’s note that
(b)(4)
                                                                              , and that the
Defense Contract Audit Agency must review and approve all invoices for payment.
However, according to Defense Contract Audit Agency personnel, the personnel who
approved those payments were located in Germany at the Defense Contract Audit Agency
European Branch office. According to Defense Contract Audit Agency European Branch
office personnel, they compared labor hours charged on the invoices to timecards to ensure
that the number of labor hours billed was consistent, but they did not verify that the labor
hours listed on the timecards were accurate. Because neither the Defense Contract Audit
Agency nor AFSBn-Kuwait personnel reviewed ITT’s invoices for accuracy, the U.S. Army
may have paid for services that were not performed. As such, the procuring contracting
officer needs to engage the Defense Contract Audit Agency to perform detailed reviews of
labor costs charged to the contract and recoup any costs associated with inaccurate labor
hour billings. We request that the Executive Director, ACC-RI, provide additional
comments with regard to how he will use Defense Contract Audit Agency assistance in
performing detailed reviews of labor costs charged to the contract and recoup any costs
associated with inaccurate labor hour billings in response to the final report by July 2, 2012.




                               FOR OFFICIAL USE ONLY
                                         22
Appendix A. Scope and Methodology
We conducted this performance audit from June 2011 through March 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Our objective was to determine whether DoD effectively executed maintenance for tactical
wheeled vehicles (TWV) in Kuwait. Specifically, we determined whether DoD provided
appropriate contract oversight to ensure that TWVs received the necessary repairs and
maintenance. The announced objective included a review of whether repair parts were
efficiently used. We will review the use of repair parts in a separate project.

To accomplish the objectives, we reviewed the contract files pertaining to contract
W911SE-07-D-0006, task order BA-02, including corrective action reports and contract
deficiency reports. We also reviewed documentation that relates to Army Field Support
Battalion-Kuwait’s (AFSBn-Kuwait) oversight of the task order (such as their quality
assurance surveillance plan, quality assurance maintenance work plan, and contracting
officer’s representative [COR] nomination letters). We reviewed ITT Corporation’s (ITT)
invoices for services provided between May 2010 and November 2011. As of
February 2012, task order BA-02’s 5-year contract ceiling was valued at $848.91 million.
Also, because our audit objective focused on contract oversight and not contract
administration, we conducted a limited review of the five undefinitized contract actions
awarded for task order BA-02 and their subsequent definitizations.

During our review, we identified that ITT billed the U.S. Army about $160.75 million for
maintenance conducted under task order BA-02. The structure of task order BA-02 did not
always allow us to differentiate between maintenance and billings related to TWVs and
maintenance and billings related to other equipment. Therefore, in some cases, we analyzed
documentation that related to more than just TWV maintenance to draw our conclusions.
Those instances are notated accordingly. In addition, we reviewed the timecards of 25 ITT
employees for a period of 2 months between June 2011 and July 2011. The 25 employees
                          (b)(4)
were selected out of over        ITT employees working under task order BA-02. We
compared them to Defense Biometric Identification System data; however, we were only
able to obtain Defense Biometric Identification System data for each ITT employee for select
days.

We contacted personnel from the Army Contracting Command-Rock Island (ACC-RI),
U.S. Army Central (ARCENT), U.S. Army Sustainment Command (ASC), the Defense
Contract Management Agency, the Defense Contract Audit Agency, and AFSBn-Kuwait.
We interviewed ITT personnel and we also conducted a site visit to Camp Arifjan, Kuwait,
from July 29, 2011, through September 1, 2011. During our site visit, we met with ITT and
AFSBn-Kuwait personnel to review ITT’s maintenance process and AFSBn-Kuwait’s
process to oversee that maintenance.

                                             23
We also reviewed the Theater-Provided Equipment Refurbishment Program and one of its
five contracts, contract W56HZV-07-D-0138, with Oshkosh Truck Corporation. According
to a representative from Army Contracting Command-Warren, Oshkosh completed the work
under the contract in August 2011. Army Contracting Command-Warren then closed the
contract in December 2011. We contacted personnel from TACOM Life Cycle Management
Command regarding the genesis of the Theater-Provided Equipment Refurbishment Program
and how it fit into TWV maintenance operations in Kuwait. We met with Oshkosh Truck
Corporation personnel at their maintenance facility in Jahra, Kuwait, to observe their
maintenance process. We also met with Defense Contract Management Agency officials in
Kuwait regarding their oversight of the contract. Since work under the contract was
completed in August 2011, our review was limited, but we did not identify any reportable
conditions.

Reliability of Computer-Processed Data Not Assessed
During our fieldwork, we used information provided to us from two different databases: the
Defense Biometric Identification System and the Army War Reserve Deployment System.
We used data from the Defense Biometric Identification System to determine whether ITT
personnel charged more labor hours to their timecards, which are then used to compile labor
hour costs for the contract, than the hours they were at Camp Arifjan for a given day. We
did not assess the reliability of that data because we used it to illustrate that without adequate
oversight over labor hours billed to the contract, the contractor could bill the U.S. Army for
more hours than were worked.

We used data from the Army War Reserve Deployment System to determine whether the
APS-5 set in Kuwait was ready for issue at any point between May 2010 and
November 2011 and to determine how many repair parts, valued at $5,000 or more, were
required by ITT between May 2010 and August 2011. We did not assess the reliability of
this data because the APS-5 set readiness information is widely used by U.S. Army officials
and the repair parts information was used to illustrate why DoD oversight or assurance is key
to substantiate that maintenance is necessary.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the Department of
Defense Office of Inspector General (DoD OIG) have issued four reports discussing contract
oversight, maintenance contracts in Kuwait, and incentives for contractors to control costs.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-1087, “DoD Needs to Address Contract Oversight and Quality
Assurance Issues for Contracts Used to Support Contingency Operations,” September 26,
2008




                                               24
GAO Report No. GAO-08-316R, “Defense Logistics: The Army Needs to Implement an
Effective Management and Oversight Plan for the Equipment Maintenance Contract in
Kuwait,” January 22, 2008

DoD IG
DoD IG Report No. D-2011-081, “Contract Management of Joint Logistics Integrator
Services in Support of Mine Resistant Ambush Protected Vehicles Needs Improvement,”
July 11, 2011

DoD IG Report No. D-2009-108, “U.S. Air Forces Central War Reserve Materiel Contract,”
September 23, 2009




                                          25
Appendix B. Tactical Wheeled Vehicles
TWV were multi-purpose or special purpose military wheeled platforms which transport
personnel and all classes of supply, to include equipment and dry or liquid cargo. TWVs
performed general or specific missions, and supported all warfighting functions. TWVs
were specially designed vehicles, or commercial vehicles modified to meet certain
military requirements, and were capable of safely operating on primary and secondary
roads at highway speeds. TWVs were capable of operating off-road but the degree of
off-road mobility varied.

Types of Tactical Wheeled Vehicles
There were four types of TWVs in the U.S. Army’s inventory: light, medium, heavy, and
Mine Resistant Ambush Protected (MRAP) vehicles.

Light Tactical Vehicles
Light tactical vehicles were vehicles which have a payload of less than 2.5 tons and were
comprised of three specific mission sets: force application (armament carriers);
battlespace awareness (reconnaissance, command and control, and general purpose
mobility); and focused logistics (light cargo utility vehicles/shelter carrier/casualty
evacuation vehicles). The High Mobility Multi-Purpose Wheeled Vehicle was the
U.S. Army’s primary light tactical vehicle. It was initially fielded to serve as a light,
highly mobile and unarmored vehicle. Figure B-1 depicts an M1151A1-model High
Mobility Multi-Purpose Wheeled Vehicle with fragmentation kit 5 and an objective
gunner’s protection kit installed.

        Figure B-1. M1151A1 High Mobility Multi-Purpose Wheeled Vehicle




                        Source: AM General.

Medium Tactical Vehicles
Medium tactical vehicles had a payload of between 2.5 and 10 tons, and included many
variants such as: cargo, tractor, van, wrecker, 8.8-ton load handling system, and 5- and
10-ton dump-truck models. The Family of Medium Tactical Vehicles increased



                                              26
U.S. Army requirements as a result of adding armored protection to the vehicles.
Figure B-2 shows an M1083A1P2 model Family of Medium Tactical Vehicle with B-kit
armor installed.

               Figure B-2. M1083A1P2 Family of Medium Tactical Vehicle




                            Source: U.S. Army Tactical Wheeled Vehicle Strategy.

Heavy Tactical Vehicles
Heavy tactical vehicles had a payload of over 10 tons. The U.S. Army’s heavy tactical
vehicle fleet consisted of:

                Heavy Expanded Mobility Tactical Truck family of vehicles were a series
                 of 10-ton, 8-wheel drive vehicles designed to provide transport capabilities
                 for resupply of combat vehicles, weapon systems, and supplies (see Figure
                 B-3 on page 28 for a picture of a load handling system which is part of the
                 Heavy Expanded Mobility Tactical Truck family of vehicles);
                Heavy Equipment Transporter System was designed to transport/evacuate
                 tanks and other heavy tracked and wheeled vehicles to and from the
                 battlefield;
                Palletized Load System was a key U.S. Army transportation system and
                 was composed of a prime-mover truck with integral self loading and
                 unloading capability, 16.5-ton payload Palletized Load System-trailer and
                 demountable cargo beds; and
                Line Haul family of vehicles were used primarily in U.S. Army
                 transportation and quartermaster units and for the rapid and efficient
                 transport of bulk supplies from air and sea ports to division support areas
                 within a theater of operation.




                                               27
                    Figure B-3. M1120A4 Load Handling System




                          Source: U.S. Army Tactical Wheeled Vehicle Strategy.

MRAP Vehicles
MRAP vehicles incorporated a V-shaped hull and armor plating designed to provide
protection against mines and improvised explosive devices. There were four categories
of MRAPs: Category I, which were used for combat operations in confined areas, and
hold up to seven personnel; Category II, which were used for ground logistics support
operations, could hold up to 11 personnel; Category III, which were primarily used for
mine/improvised explosive device clearance operations, and held up to 6 personnel; and
MRAP All-Terrain Vehicles, which were used for combat operations in complex and
highly restricted rural, mountainous, and urban terrain. The MRAP All-Terrain Vehicle
provided better overall mobility characteristics than the original Category I, II, and III
MRAP vehicle variants and provided better survivability characteristics than any variant
of the High Mobility Multi-Purpose Wheeled Vehicle. Figure B-4 shows an MRAP
All-Terrain Vehicle with an objective gunner’s protection kit installed.

                        Figure B-4. MRAP All-Terrain Vehicle




                         Source: U.S. Army Tactical Wheeled Vehicle Strategy




                                             28
Appendix C. DoD OIG Quick Reaction
Memorandum and U.S. Army Response


                                                 INSPECTOR GENERAL
                                              DEPARTMENT OF ElEFENSE
                                                 400 ARMY NAVY DRIVE
                                            ARLINGTON, VIRGINIA 22202·4704

                                                                                                                   10/ l8/20tl


    MEMORANDUM FOR COMMANDER, U.S. ARJviY SUSTAlNMENT COMMAND
                                    DIRECTOR, ARMY CONTR.l\CTING COMMAND-
                                          ROCK ISLAND

    SUBJECT: Concerns Regarding the Field fnstallation Readiness Suppott Team (FIRST) Task
             Order Contract With [l'T Systems Corporation for the Maintenance of Tactical
             Wheeled Vehicles i11 Knwcti1

    We are Jlroviding tbis memorandum for your attention arld suggested action before completing
    Project No. D20ll-DOOOJA-0212.000, "Maintenance for Tactical \\fheeled Vehicles in Kuwait."
    We are concerned with the U.S, Army Sm;tai.nmem Command's (ASC) and ArnlY Contracting
    Conunand- Rock Island's (ACC-Rl) plans to conti.t1t1e using the Fielcl Installation Readiness
    Support Team (FIRST) contrllct for executi11g the maiilti')I1Jll1ce of tactical wheele d vehicles i.t1
    Kuwajt Contract W9l lSE-07-D-0006, task ordet BA-02 with ITT



                                               contract       not                             contractor
    to m~er                    requirements, considering the critical nat1.tre of the Anuy Field Support
    Battalion-RuW':Iit (AFSBn-Kuwait) mission. Additionally, ACC.R.l personnel did not structure
    t.he contract to support the AFSBn-Kuwait mission and the oversight cnviro.runertt. Vle Sl~gge::tt
    that the Conunander, ASC, in coJ1iunction with ACC-R1, replace tho:: current contract >'Jith a new
    contract (or contracts) fl1at considers AFSBn-Ruwait's mission, oversighf, and operational
    environment nnd add contract langu:,~ge t1mt incenti;llizes the con1ractorto efficiently and
    economically support AFSBn-Kuwait's mission.

    Background
    ASC provides sustairnnent-levellogistic.s to support Army, Joint, and Coalition forces, inclnding
    tullintenance ofAPS sets. ACC.RI is the contracting artn of ASC and provides contracting
    suppttrt to AFSBn- Kuwait. AFSBn-Kuwait has three main mission areas: APS-5. retrograde,
    and direct theater support.• Accordi.t1g io APSBn-Kuwait ]Jersonnel, they also execute more tlian


    'Def111itizatooo is the agreemellt <111 contract ternlS, specifications, and pric,e L~1dec certain circuofu"tances,. Dof)
    agencies onay use an undefittitized contract action t<> allow a contractor to be~in perf'oonancebefore agreement of a
    pdce. Ondefinit~ conlracts are a binding commitment that must fru:lude a oot-to-e.weed price ceiling and a
    definltiz.'lliou ;ohedule.
    l APS-5 is cquipmcoLreserved solely fot·ti.mes of war and is located in Southwest Asia l1. uocludes a hemry bngad"
    tomb at le<Jrfl, infllrl.lry brigade combat teafl\ separate reportable uruts, mod rnotol'ized augrncrii:Htion o(>tioos.
    3
      Direct tllcater support it1cludos receivir1g, stor·iug, ar1d issuing batOe J<)SsibaUie darnagetl r~plae'<'tnttot equipment.
    Retrograde refers to !he receiving, prepping for shipment, and shipping of equipmemfrom lraq.
                                                                  1

                                               rn !IFPLL db uon m t :



                                                               29
Glossary
Army Prepositioned Stock (APS). APS consists of U.S. Army equipment that is available to
early deploying units to support operations throughout the world while minimizing the
requirement for strategic lift. APS allows soldiers to deploy with only a minimum amount of
equipment and matches them up with prepositioned equipment already in theater to reduce the
time needed to deploy.

Contract discrepancy report. A contract discrepancy report is a notification to the contractor
of insufficient performance and documents that insufficient performance. A contract
discrepancy report is a more severe, serious or major fault or performance discrepancy than a
deficiency worthy of a corrective action report (see definition below).

Contracting officer’s representative (COR). A COR assists in the technical monitoring or
administration of a contract. The surveillance activities performed by CORs should be tailored
to the dollar value and complexity of the specific contract for which they are designated.

Corrective action report. A corrective action report is a notification to the contractor of
insufficient performance and documentation of that insufficient performance.

Cost-plus-fixed-fee (CPFF) contract. A CPFF contract is a cost-reimbursement contract that
also provides for payment to the contractor of a negotiated fee that is fixed at the inception of the
contract. The fixed fee does not vary with actual cost, but may be adjusted as a result of changes
in the work to be performed under the contract.

Definitization. Definitization is the agreement on contract terms, specifications and price.
Under certain circumstances, DoD agencies may use an undefinitized contract action to allow a
contractor to begin performance before agreement of a price. Undefinitized contract actions are
binding commitments that must include a not-to-exceed price ceiling and a definitization
schedule.

Direct theater support (DTS). DTS includes receiving, storing, and issuing battle loss/battle
damaged replacement equipment.

Firm-fixed price (FFP) contract. A FFP contract provides for a price that is not subject to any
adjustment on the basis of the contractor’s cost experience in performing the contract.

Integrated Logistics Support Service. A composite of all the support considerations necessary
to assure the effective and economical support of a system for its life cycle. It is an integral part
of all other aspects of system acquisition and operation.

Retrograde. Retrograde is the process for the movement of non-unit equipment and materiel
from a forward location to a reset (replenishment, repair, or recapitalization) program or




                                                 38
to another directed area of operations to replenish unit stocks, or to satisfy stock requirements.
AFSBn-Kuwait’s retrograde mission refers to the receiving, prepping for shipment, and shipping
of equipment from Iraq.

Termination for default. Termination for default means the exercise of the Government’s right
to completely or partially terminate a contract because of the contractor’s actual or anticipated
failure to perform its contractual obligations.

Theater sustainment stock. Theater sustainment stock is an U.S. Army pool of equipment set
aside to rapidly replace equipment damaged and destroyed during operations, including tactical
wheeled vehicles.

The following definitions refer to the areas in the performance work statement for task order
BA-02.

Army Prepositioned Stocks Operations. The contractor shall manage classes of supply for
APS and TSS stocks to ensure readiness for issuance in accordance with the PWS.

Equipment Retrograde Operations. The contractor shall receive equipment from convoys
24 hours a day, seven days a week, and stage the vehicles. The contractor shall verify the
accuracy of property transfer documents and track down equipment that was misshipped.

Direct Theater Support Operations. The contractor shall repair and maintain equipment
submitted by the Government for either return to use, distribution for tasker, and/or placement
into storage.

Base Operations. The contractor shall maintain and operate support functions consisting of
physical security measures, employee bus service to move employees around post, bottled water
and ice distribution, facility upkeep, janitorial and facility utilization management.

Information Technology Operations. The contractor shall install and operation information
systems security protective devices and software. The contractor shall employ qualified systems
administration personnel and provide technical support for end user automation equipment.

Government Furnished Equipment Operations. The contractor shall initiate and maintain the
processes, systems, procedures, records, and methodologies for effective control of Government
property in accordance with applicable regulations.

Maintenance Support Operations. The contractor shall operate a Maintenance Operations
Center to service as the nerve center for all maintenance operations. The contractor shall
establish an oil analysis program, maintain a technical library, maintain
records and status of equipment under warranty, perform painting of equipment, deprocess new
equipment, and install armor and survivability enhancement kits as necessary.




                                                39
Supply Support Operations. The contractor shall operate a Supply Operations Center as a
nerve center to all supply operations. The contractor shall operate a central receiving and
shipping point, track and return/re-use all containers, and support download and upload of ships
and vessels.

Quality Control and Process Improvement Services. The contractor shall develop and
implement a first rate quality control and process improvement program that shall include a
means to incentivize employees to reduce cost and improve schedule and performance.

Logistics and Maintenance Operations Center Services. The contractor is to serve as the
primary interface for Government to contractor operational interface and be the nerve center of
the operations. This operations center shall tie together and coordinate functional efforts of
maintenance, supply, transportation, and other aspects to ensure a synchronized effort in
requests.




                                               40
  Final Report
   Reference




Renumbered as
Recommendations
B.3.a and B.3.b.
  Final Report
   Reference




Revised and
renumbered as
Recommendation
B.2.
